JACKMAN & ROTH LLP
950 Massachusetts Avenue, Apt. 318
Cambridge, Massachusetts 02139
Norman Jackman (Admitted in MA & NH)
njackman@post.harvard.edu
Norma Roth (Admitted in MA)
November 22, 2019
United States Supreme Court
1 First Street NE
Washington, DC 20543

Telephone:(617) 682-8049

Re: Petition for Certiorari, Daniel A. Grover
U.S.C.A. Federal Circuit Case Number 18-2102

Dear Sir/Madam:
Enclosed for filing in the above referenced case please find:
40 copies of the Petition for Certiorari of Daniel A Grover, together with
40 copies of the Appendix thereto, each taped and with two hard copies on ordinary paper.
a Certificate of Compliance with the word count, being 1886 words for the entire Petition, a
Certificate of Service of 3 copies of the Petition and 3 copies of the Appendix on:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
A Certificate of Service of 3 copies of the Petition and 3 copies of the Appendix on:
Anthony Schiavetti
Commercial Litigation Branch
Civil Division
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001

CERTIFICATE OF COMPLIANCE
I, Norman Jackman, attorney for Petitioner, hereby certify that the Petition for Certiorari of
Daniel A Grover contains 1886 words as shown in the word count of Microsoft Word.
/s/ Norman Jackman

CERTIFICATE OF SERVICE
I, Norman Jackman, attorney for Daniel A. Grover, hereby certify that I served 3 copies of the
Petition and 3 copies of the Appendix via first class mail, postage prepaid, the 27th day
of September 2019 on:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
/s/ Norman Jackman

I, Norman Jackman, attorney for Daniel A. Grover, hereby certify that I served 3 copies of the
Petition and 3 copies of the Appendix via first class mail, postage prepaid, the 27th day
of September, 2019 on:
Anthony Schiavetti
Representative of OPM
Commercial Litigation Branch
Civil Division
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
/s/ Norman Jackman
Sincerely,
/s/ Norman Jackman
Norman Jackman

